no.

'LQ-'hHH
$n %

I

wn

fl

(Supreme Gtoud: of if)e Httiieb (Siaief
Jung Hyun Cho et al,
Petitioners,
v.

Select Portfolio Servicing, Inc. et al.
Respondents

ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
PETITION FOR WRIT OF CERTIORARI
Jung Hyun Cho
Kyu Hwang Cho
Eun Sook Cho
Eui Hyun Cho

filed
JUL 2 3 2020
S>UPREEMEFCnl^rLi^K

4384 Burgess Dr.
Sacramento, CA 95838
707-761-5763

RECEIVED
SEP 2 8 2020

QUESTIONS PRESENTED
I.

Whether a state summary court has competent jurisdiction over an unlawful detainer action
challenged by a bona fide property dispute arising from a non-judicial foreclosure auction
of a privacy-label mortgage securitization.

II.

Whether a non-assigned Article III judge’s “independent duty” intervention with removal
jurisdiction of a state unlawful detainer case to a related federal case is constitutional,
absent emergency and absent any motion by a party.

III.

Whether the remand by the non-assigned judge to the state court whose jurisdiction is
challenged is constitutional amid the alleged fraud upon the court in the remand
proceedings, and whether the remand for lack of subject matter jurisdiction over the state
case that “forms part of the same case or controversy” is constitutional, notwithstanding
the supplemental jurisdiction.

IV.

Whether non-borrowing co-occupants/family members of a homeowner have standing to
FHA1 redress on grounds of an injury in fact as aggrieved persons.

V.

Whether the holding by the trial court that Petitioners have no private party right of action
under HAMP2 is valid, notwithstanding a landmark decision to the contrary.

VI.

Whether continuity plus relationship substantiated by a facially plausible factual content
and extrinsic evidence is not cognizable enough to invoke the RICO3 pattern requirements
as proximate cause.

VII.

Whether Local. R. 302(c)(21) limiting pro se litigants’ due process rights to be heard
before Article III judges is constitutional.

VIII.

Whether a trustee of certificate holders of private-label MBS4 is eligible for postmortem
credit bid on a non-judicial foreclosure auction, absent a competent cash bidder.

1 Fair Housing Act of 1968
2 Home Affordable Modification Program (HAMP)
3 Racketeer Influenced and Corrupt Organizations (RICO) Act OF 1970
4 Mortgage-Backed Security is classified as privacy-label MBS and agency-label MBS. Agency means
GSE(Government Sponsored Enterprise) including Fannie Mae and Freddie Mac.

LIST OF PARTIES
[ ] All parties appear in the caption of the case on the cover page.
[ x] All parties do not appear in the caption of the case on the cover page. A list
of all parties to the proceeding in the court judgment is the subject of this
petition is as follows:
o Select Portfolio Servicing,
Inc., loan servicer

o Jung Hyun Cho, petitioner

o Deutsche Bank National Trust
Company, trustee of MBS
certificate holders

o Kyu Hwang Cho, petitioner

o Bank of
servicer

o Eui Hyun Cho, petitioner

America,

loan

o Eun Sook Cho, petitioner

o WMC Mortgage LLC, loan
originator
o The Wolf Firm,
corporation

a

law

o Ronald Lee, real estate agent
o Juan Gomez, real estate agent
o Solano County Tax Assessor

RELATED CASES
o Deutsche Bank National Trust Company v. Jung Hyun Cho, et al., No. FCM 154163,
Superior Court of CA for Solano County. Judgment entered 08/03/2017.
o Deutsche Bank National Trust Company v. Jung Hyun Cho, et al. No. 2:17-CV-01357MCE-DB-PS. Remand entered 07/11/2017.
o Deutsche Bank National Trust Company v. Jung Hyun Cho, et al. No.FCS049349,
Appellate Div. of Solano Court. Judgment entered 08/28/2018.

o Jung Hyun Cho v. Deutsche Bank, No. FCS049317, Superior Court of CA for Solano
County, Judgment suspended in December 2017 and entered in August 2018.
o Jung Hyun Cho v. Deutsche Bank, No. A154170, 1st District Court of Appeals, Judgment
entered 09/30/2019. Petition for rehearing denied 10/29/2019.
o Jung Hyun Cho, et al. v. Select Portfolio Servicing Inc et al. No. 2:17-CV-01073-CKD.
Judgment entered 08/14/2018
o Jung Hyun Cho, et al. v. Select Portfolio Servicing Inc et al. No. 18-186719, 19th Circuit.
Judgment entered 04/21/2020.

iv

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED...... 3
STATEMENT OF THE CASE

9

REASONS FOR GRANTING THE PETITION

19

CONCLUSION

21
INDEX OF APPENDICES

Appendix A
A-l : Memorandum, 9th Circuit
A-2 : Judgment(Dismissal), CAED
A-3 : Order Adopting Findings, CAED
A-4 : Findings, CAED
Appendix B
B-l : Denial of Petition for Writ of Mandamus, 9th Circuit
B-2 : Remand, CAED
B-3 : Removal, CAED
Appendix C
C-l : Petition for Transfer, 1DCA
C-2 : Appellate Case A154170, Quiet Title
C-3 : FCS049349, Appellate Division of Solano Court

TABLE OF AUTHORITIES
CASES
Allison Engine Co. v. United States ex rel. Sanders, 553 U.S. 662 (2008)..

8,18

Asuncion v. Superior Court (W. C. Financial, Inc.) (1980)....................... 3,4,14,19,21
Bank of America Corp. v. City ofMiami
Consolidated with Wells Fargo & Co. v. City ofMiami(SCOTUS 2017)........8,18,21
Bushell v. JPMorgan Chase Bank, N.A. (2013) 220 Cal.App.4th 915.

18

Carlsbad Technology, Inc.., Petitioner v. HIFBIO, INC., etal.........

4

Chicago v. International College ofSurgeons, 522 U. S. 156, 173.....
George v. Urban Settlement Services, No. 14-1427 (10th Cir. 2016)..

5
7,18,20,21

Gonzales v. Gem Properties, Inc. (1974) 37 Cal. App. 3d 1029, 1036
[112 Cal. Rptr. 884]......................................................................

3

Mahin Oskoui v. JPMorgan Chase Bank, et at 9th Circuit in 15-55457(2017)....... 18
Osborn v. Haley, 549 U. S. 225, 245.............................................
Oskoui v. J.P. Morgan, No. 15-55457 (9th Cir. 2017)...................

5
17,21

RadLAX Gateway Hotel, LLC v. Amalgamated Bank,
No. 11-166, 2012 WL 1912197 (U.S. May 29, 2012)..................

15

Sedima, S.P.R.L. v. Imrex Co........................................................

7

Spokeo v. Robins,---- U.S.------ , 136 S. Ct. 1540,
194 L.Ed.2d 635 (2016)................................................................

,,.5,6,16,18

West v. JPMorgan Chase Bank, N.A. (2013) 214 Cal.App.4th 780,
154 Cal.Rptr.3d 285......................................................................

18

Wigod v. Wells Fargo Bank, N.A., No. 11-1423 (7th Cir. 2012)....

6,17,21

STATUTES AND RULES
California Code of Civil Procedure(CCP) §§ 85 - 89

3

28 U.S. Code § 1367.................................................

.4

28 U. S. C. § 1441(c).................................................

.4

28 U.S.C. §§ 1447(c) and (d)......................................

5

VI

Racketeer Influenced and Corrupt Organizations Act (RICO),
18U.S.C. §§ 1961 1968.........................................................

4,7,13

Fair Housing Act (FHA) 42 U. S. C. §§3604(b), 3605(a)........

8

42 U.S.C. §§3613(a)(l)(A), (c)(1)..........................................

8

False Claim Act of 1863, 31 U.S.C. §§ 3729-3733..............

8

Fraud Enforcement Recovery Act (FERA) of 2009................

8,9,13,18,21

12 U.S.C. §§ 5201,5202,5211.............................................

8

Judiciary Act of 1789.............................................................

9,16

18 U.S.C. § 1031.....................................................................

8

18 U.S.C. § 1014....................................................................

9

Bankruptcy Code Section 363(k), 11 U.S.C. §363..................

9

Financial Institutions Reform, Recovery, and Enforcement Act of 1989 (FIRREA)...13
The Federal Magistrates Act of 1968

17

Local Rule L.R. 302(C)(21).............

17

OTHER
Fifth and Fourteenth Amendments

6

Sixth Amendment

13

Article III

4,5,6,10,17,19,20

VII

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioners respectfully pray that a writ of certiorari issue to review the judgment below.

OPINIONS BELOW
[ X ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix A-l, B-l to
the petition and is
[ ] reported at_______________________________________
[ ] has been designated for publication but is not yet reported; or,
[x] is unpublished.

or,

The opinion of the United States district court appears at Appendix A-3. A-4. B-2 to
the petition and is
[ ] reported at________________________________________
[ ] has been designated for publication but is not yet reported; or,
[x] is unpublished.

or,

[ X ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix C-2
to the petition and is
[ ] reported at________________________________________
[ ] has been designated for publication but is not yet reported; or,
[x] is unpublished.

or,

The opinion of the Appellate Division of Superior Court
appears at Appendix C-3 to the petition and is
[ ] reported at________________________________________
[ ] has been designated for publication but is not yet reported; or,
[x] is unpublished.

1

or,

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States court of appeals decided my case
was April 21. 2020.
[x] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of Appeals
on the following date:__________________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U.S.C. § 1254(1)
Note: resubmission was allowed by this Court within 60 days from Aug. 29. 2020.

[ ] For cases from state courts:
The date on which the highest state court decided my case was 08/28/2018.
A copy of that decision appears at Appendix C-2.
[ ] reported at________________________________________
; or,
[ ] has been designated for publication but is not yet reported; or,
[x] is unpublished.
The opinion of the Appellate Division of state court appears at Appendix C-3 to the petition
and is
[ ] reported at________________________________________
[ ] has been designated for publication but is not yet reported; or,
[x] is unpublished.
The jurisdiction of this Court is invoked under 28 U.S.C. § 1257(a)

2

or,

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The core issues of the Chos’ appeal to 9th Circuit are due process and judicial impartiality.
The required elements of due process are those that “minimize substantively unfair or mistaken
deprivations” by enabling persons to contest the basis upon which a state proposes to deprive them
of protected interests.
The Chos proceeding pro se have found a significant amount of unfairness and errors in court
proceedings has grown acceleratingly to worsen their position to face an insult added to injury.
Landmark court cases support the Chos’ claim in terms of similarity in FHA arguments.
Question I: Jurisdictional Issue
California Code of Civil Procedure
Jurisdiction in Limited Civil Cases [85 - 89] (Article 1 added by Stats. 1998, Ch. 931, Sec.
28.)
85. An action or special proceeding shall be treated as a limited civil case if all of the
following conditions are satisfied, and, notwithstanding any statute that classifies an
action or special proceeding as a limited civil case, an action or special proceeding
shall not be treated as a limited civil case unless all of the following conditions are
satisfied:
(a) The amount in controversy does not exceed twenty-five thousand dollars ($25,000).
As used in this section, “amount in controversy” means the amount of the demand, or
the recovery sought, or the value of the property, or the amount of the lien, that is in
controversy in the action, exclusive of attorneys’ fees, interest, and costs.
The state case of unlawful detainer intentionally set Plaintiffs monetary claim at under $10,000
in an egregious attempt to game the limited case jurisdiction to evade a jury trial for an unlimited
case for over $25,000.
The landmark decision on Asuncion v. Superior Court (W. C. Financial, Inc.) (1980) is
frequently cited for property disputes involving fraud.
Court of Appeals of California, Fourth Appellate District, Division One ruled:
It is generally recognized the summary unlawful detainer action is not a suitable vehicle to
try complicated ownership issues involving assertions of fraud and deceptive practices such
as the Asuncions allege here. In holding an unlawful detainer action is not res judicata on
the question of fraud in the acquisition of title, Gonzales v. Gem Properties, Inc. (1974) 37
Cal. App. 3d 1029, 1036 [112 Cal. Rptr. 884], pointed out, "The summary nature of
unlawful detainer proceedings suggests that, as a practical matter, the likelihood of the
defendant's being prepared to litigate the factual issues involved in a fraudulent scheme to
deprive him of his property, no matter how diligent defendant is, is not great."
3

The court of Asuncion held
Since this court[Municipal Court] is not a suitable forum to determine the need for a
preliminary injunction nor its terms and conditions, we leave such matters for
determination in the trial court. We hold only, the Asuncions are entitled to defend this
eviction action based on the claims of fraud and related causes which they have asserted,
and accordingly the action necessarily exceeds the jurisdiction of the municipal court and
cannot be tried there.
Questions II and III:
Supplemental jurisdiction 28 U.S. Code § 1367.
(a) Except as provided in subsections (b) and (c) or as expressly provided otherwise by
Federal statute, in any civil action of which the district courts have original jurisdiction,
the district courts shall have supplemental jurisdiction over all other claims that are so
related to claims in the action within such original jurisdiction that they form part of
the same case or controversy under Article III of the United States Constitution. Such
supplemental jurisdiction shall include claims that involve the joinder or intervention
of additional parties.
Question III: Fraud on the court involving removal jurisdiction
Removal Reviewable on Appeal
SYLLABUS
OCTOBER TERM, 2008
CARLSBAD TECHNOLOGY, INC. V. HIF BIO, INC.
SUPREME COURT OF THE UNITED STATES
CARLSBAD TECHNOLOGY, INC. v. HIF BIO, INC., et al.
certiorari to the united states court of appeals for the federal circuit
No. 07-1437. Argued February 24,2009—Decided May 4, 2009
Respondents filed a state-court suit alleging that petitioner had violated state and federal
law in connection with a patent dispute. After removing the case to Federal District Court
under 28 U. S. C. §1441(c), which allows removal if the case includes at least one claim
over which the federal court has original jurisdiction, petitioner moved to dismiss the suit’s
only federal claim, which arose under the Racketeer Influenced and Corrupt Organizations
Act (RICO). Agreeing that respondents had failed to state a RICO claim upon which relief
could be granted, the District Court dismissed the claim; declined to exercise supplemental
jurisdiction over the remaining state-law claims under § 1367(c)(3), which allows such a
course if the court “has dismissed all claims over which it has original jurisdiction”; and
remanded the case to state court. The Federal Circuit dismissed petitioner’s appeal, finding
4

that the remand order could be colorably characterized as based on a “lack of subject matter
jurisdiction” over the state-law claims, § 1447(c), and was therefore “not reviewable on
appeal,” § 1447(d).
Held: A district court’s order remanding a case to state court after declining to exercise
supplemental jurisdiction over state-law claims is not a remand for lack of subject-matter
jurisdiction for which appellate review is barred by §§1447(c) and (d). With respect to
supplemental jurisdiction, a federal court has subject-matter jurisdiction over specified
state-law claims, see §§ 1367(a), (c), and its decision whether to exercise that jurisdiction
after dismissing every claim over which it had original jurisdiction is purely discretionary,
see, e.g., Osborn v. Haley, 549 U. S. 225, 245. It is undisputed that when this case was
removed, the District Court had original jurisdiction over the federal RICO claim under
§1331 and supplemental jurisdiction over the state-law claims, which were “so related to
claims ... within such original jurisdiction that they form[ed] part of the same case or
controversy,” § 1367(a). On dismissing the RICO claim, the court retained its statutory
supplemental jurisdiction over the state-law claims. Its decision not to exercise that
statutory authority was not based on a jurisdictional defect, but on its discretionary choice.
See Chicago v. International College of Surgeons, 522 U. S. 156, 173. Pp. 3-6.
508 F. 3d 659, reversed and remanded.

Question II: Removal Jurisdiction
LOCAL RULE 122 (Fed. R. Civ. P. 63)
AUTHORITY OF ASSIGNED JUDGES AND MAGISTRATE JUDGES
IN EMERGENCIES
The Judge assigned to an action, or the Magistrate Judge when authorized,
shall preside over the trial and determine all motions or other matters in that
action, except as otherwise provided in Fed. R. Civ. P. 63 and Fed. R. Crim.
P. 25, or as otherwise ordered, or in cases of emergency. In the event of an
emergency requiring prompt action, if the assigned Judge or Magistrate
Judge is unavailable, the matter shall be presented to the Clerk for
temporary assignment to another available Judge or Magistrate Judge, if
necessary. In such instance, it shall be the responsibility of counsel
presenting the matter to provide the Judge or Magistrate Judge to whom the
matter is presented with a detailed explanation of the necessity for the
application's being handled on an emergency basis.
The matter shall be returned to the calendar of the unavailable assigned
Judge or Magistrate Judge upon the resolution of the matter, unless the
matter is transferred pursuant to these Rules.
Questions IV and V : Article III Standing
1) Spokeo v. Robins
5

In 2016, the United States Supreme Court issued a landmark opinion addressing Article III
standing under the U.S. Constitution. See Spokeo v. Robins,---- U.S.-------, 136 S. Ct.
1540, 194 L.Ed.2d 635 (2016). “[T]he ‘irreducible constitutional minimum’ of standing
consists of three elements. The plaintiff must have (1) suffered an injury in fact, (2) that is
fairly traceable to the challenged conduct of the defendant, and (3) that is likely to be
Federal Magistrates Act of 1968redressed by a favorable judicial decision.” Id. Ultimately,
in Spokeo, the Supreme Court held that “Article III standing requires a concrete injury even
in the context of a statutory violation.” Id. at 1549.
2) Wigod v. Wells Fargo
In 2012, under the Wigod v. Wells Fargo Bank, N.A., 673 F.3d 547 (7th Cir. 2012),
the Seventh Circuit Court of Appeals ruled that despite having signed a loan
modification agreement and entered into a trial period, the homeowner could
maintain a private cause of action against the lender or servicer under certain
circumstance. The court held that borrowers who have entered into a trial period
plan under HAMP can seek relieve when those servicers fail to abide by the terms
of the trial period payment plan.
Under HAMP, the borrowers are provided with a trial period, requiring them
to make payments for usually three months, and thereafter, the final modification
agreement is supposedly mailed to the homeowner borrower. However, in cases,
the bank does not follow through with the final HAMP modification and fails to
offer it to the borrower. Or may fail to adhere to the same promised payments as
set forth in the trial period.
Question VII: Due Process
The Fifth and Fourteenth Amendments to the United States Constitution each
contain a due process clause. Due process deals with the administration of justice
and thus the due process clause acts as a safeguard from arbitrary denial of life,
liberty, or property by the government outside the sanction of law. The Supreme
Court of the United States interprets the clauses broadly, concluding that these
clauses provide three protections: procedural due process (in civil and criminal
proceedings); substantive due process, a prohibition against vague laws; and as the
vehicle for the incorporation of the Bill of Rights.
The clause in the Fifth Amendment reads:
No person shall ... be deprived of life, liberty, or property, without due
process of law.
While the clause in the Fourteenth Amendment says:
...nor shall any State deprive any person of life, liberty, or property, without
due process of law.

6

Question VI: RICO Pattern Requirement
1) RICO Continuity Plus Relationship Test
The controversy surrounding this element stems from two factors. First,
RICO does not define "pattern of racketeering activity."
Instead, the law states that such a pattern "requires at least two acts of
racketeering activity" within ten years ofeach other. Second, in a
1985 decision entitled Sedima, S.P.R.L. v. Imrex Co., the Supreme
Court suggested that RICO's "extraordinary" breadth stems from
the judiciary's failure to interpret the pattern element meaningfully
and not simply from statutory design. Accordingly, in what has become a
landmarkfootnote, Justice White's majority opinion advanced thefollowing
suggestion:
The legislative history supports the view that two isolated acts of
racketeering do not constitute a pattern. As the Senate Report explained:
"The target of[RICO] is thus not sporadic activity.
The infiltration of legitimate business normally requires more than one
'racketeering activity' and the threat of continuing activity to be effective. It
is this factor of 'continuity plus relationship' which combines to produce a
pattern."
2) George v. Urban Settlement Servs.
It is a well-established fact that 105 cases cited George v. Urban for similar HAMP
lawsuits involving RICO offences.
UNITED STATES COURT OF APPEALS FOR THE TENTH CIRCUIT
Aug 15, 2016 833 F.3d 1242 (10th Cir. 2016)
Richard George, Steven Leavitt, Sandra Leavitt, and Darrell Dalton appeal
the district court’s dismissal of their putative class action against Urban
Settlement Services, dfb/a Urban Lending Solutions (Urban) and Bank of
America, N.A. (BOA). The plaintiffs asserted a claim under the Racketeer
Influenced and Corrupt Organizations Act (RICO), 18 U.S.C. §§ 1961-1968,
against BOA and Urban. They also brought a promissory estoppel claim
against BOA. Both claims arose from the defendants ’ allegedly fraudulent
administration of the Home Affordable Modification Program (HAMP).
The district court granted the defendants’ Fed. R. Civ. P. 12(b)(6) motions
to dismiss both claims, denied the plaintiffs ’ requestfor leave to amend their
first amended complaint, and dismissed the case. Because we conclude that
the plaintiffs’ first amended complaint states a facially plausible RICO
claim against BOA and Urban and a facially plausible promissory estoppel
claim against BOA, we reverse and remand for further proceedings. Our
reversal moots the plaintiffs ’ challenge to the district court’s denial oftheir
request to further amend the complaint. When Congress enacted the
Emergency Economic Stabilization Act of2008, it authorized the Secretary
7

of the U.S. Department of the Treasury to establish the Troubled Asset
ReliefProgram (TARP) and to purchase troubled assets, including certain
residential mortgages, from financial institutions. See generally 12 U.S.C.
§§ 5201, 5202, 5211. Consistent with this authority, the Secretary
established HAMP in 2009 to encourage mortgage servicers to modify loan
terms for delinquent borrowers at risk offoreclosure.
Question IV : Aggrieved person
(1) Bank of America Corp.et al v. City of Miami, Florida. Question IV
CERTIORARI TO THE UNITED STATES COURT OF APPEALS FOR
THE ELEVENTH CIRCUIT
No. 15-1111. Argued November 8, 2016—Decided May 1, 2017*
The City of Miami filed suit against Bank of America and Wells Fargo
(Banks), alleging violations of the Fair Housing Act (FHA or Act).
The FHA prohibits, among other things, racial discrimination in
connection with real-estate transactions, 42 U. S. C. §§3604(b), 3605(a),
and permits any “aggrievedperson ” to file a civil damages action for
a violation of the Act, §§3613(a)(1)(A), (c)(1). The City’s complaints
charge that the Banks intentionally targeted predatory practices at
African-American and Latino neighborhoods and residents, lending
to minority borrowers on worse terms than equally creditworthy
nonminority borrowers and inducing defaults byfailing to extend
refinancing and loan modifications to minority borrowers on fair terms.
Question V : Private Party Right of Action
HAMP V. FCA
(1) Allison Engine Co. v. United States ex rel. Sanders, 553 U.S. 662 (2008)
The holding of Allison by the Supreme Court was overruled by Congress under
Fraud Enforcement Recovery Act(FERA) of2009 due mainly to the loose language
found in the definition of federal money and financial institutions in False Claim
Act of 1863, 31 U.S.C. §§ 3729 - 3733, despite three amendments made prior to
FERA.
The crime of major fraud against the United States (18 U.S.C. § 1031), which
previously covered only fraud in government procurement and contracts for
services, is amended to include a wider range of government involvement,
including grants under the American Recovery and Reinvestment Act of 2009,
transactions under the Troubled Assets Relief Program(TARP), and any "other
form of Federal assistance". FERA changes the definition of a financial institution
for the purposes of Federal criminal law to include mortgage lending businesses,
which are defined as "organizations which finance or refinance any debt secured
8

by an interest in real estate, including private mortgage companies and any
subsidiaries of such organizations, and whose activities affect interstate or foreign
commerce." 18 U.S.C. § 1014, which makes it a federal offense to falsify loan
documents submitted to a broad range of financial institutions, is amended to
include mortgage lending businesses in that range, and for good measure also
includes any other person "that makes in whole or in part a federally related
mortgage loan".
The HAMP violation is therefore to be pursuant to FERA. The Chos argue the panel
misconstrued the rule of law by sweeping this case under the carpet of arguably
judicial immunity at a challenging time like this COVID-19 pandemic that actually
disabled a fair and realistic chance of any request for rehearing by either the panel
or en banc.
In their pleadings, the Chos have stated a viable basis for RICO predicates perpetrated
by lender and/or servicers during the 13-year period starting in September 2004. The Chos
have fully stated facial plausibility on fraudulent operations by defendants, which are
facially plausible enough to pass the “continuity plus relationship” test during the 13-year
period enough to substantiate viable RICO claims.
Question VII: Pro Se Litigation
Judiciary Act of 1789
”[I]n the federal courts the right of self-representation has been protected by statute
since the beginnings of our Nation. Section 35 of the Judiciary Act of 1789, 1 Stat.
73, 92, enacted by the First Congress and signed by President Washington one day
before the Sixth Amendment was proposed, provided that 'in all the courts of the
United States, the parties may plead and manage their own causes personally or by
the assistance of counsel.'
Local R. 302(c)(21)
(21) In Sacramento, all actions in which all the plaintiffs or defendants are
proceeding in propria persona, including dispositive and non-dispositive motions
and matters. Actions initially assigned to a Magistrate Judge under this paragraph
shall be referred back to the assigned Judge if aparty appearing in propria persona
is later represented by an attorney appearing in accordance with L.R. 180.
The Chos believe the foregoing local rule unfairly limits pro se litigants’ procedural due
process rights and may imminently harm by the Chos’ position to be able to be referred back to
the assigned district judge unless they are represented.
Question VIII: Scope of Postmortem Credit Bid
on Non-Judicial Foreclosure Auction
Bankruptcy Code Section 363(k), 11 U.S.C. §363
9

(k) At a sale under subsection (b) of this section ofproperty that is subject to a
lien that secures an allowed claim, unless the court for cause orders otherwise the
holder ofsuch claim may bid at such sale, and, ifthe holder ofsuch claim purchases
such property, such holder may offset such claim against the purchase price ofsuch
property.
The Chos contend the bankruptcy courts are an Article I tribunal, while property disputes
alleging fraud can be argued in an Article III tribunal, when and if proceedings in a consent
jurisdiction under a magistrate judge is challenged on grounds of lack of bona fide
procedural due process.

STATEMENT OF THE CASE
INTRODUCTION
The Chos5, Petitioners, bought a real property6 as their primary residence in the solo
name of Jung Hyun Cho in September 2004 and had shared all the housing costs until
they left this property in August 2017. The purchase price was $599,000 and financed
with two loans from WMC Mortgage LLC. This property had remained underwater or
minus equity for 13 years until the Chos left due to eviction judgment. A total out-ofpocket amount of approximately $350,000, let alone roughly $100,000 for home
improvement, was paid for mortgage, home insurance and property tax alone. The
monthly payment started at around $3,400 and later in the beginning of the 2007-2008
housing crash it went up to $4,600.
At the peak of the national 2007-2008 housing crash, the loan default occurred due
mainly to family sickness, and partly because the borrower Jung Hyun Cho working two
jobs at that time lost one. The borrower’s mother Eun Sook Cho, was diagnosed with an
incurable genetic disorder that threatened an imminent loss of vision.
THE FACTUAL BASIS
After the default, notices of default and cancellations repeatedly followed until in
April 2010, the then-servicer Bank of America offered the 3-month TPP7 at $2,170/month
under HAMP, starting in May 2010. Eventually, seven monthly payments of $2,1708 were
made. Nevertheless, Bank of America reneged on its promise to make the HAMP
modification permanent.

5 Kyu Hwang Cho, father, 72, Eun Sook Cho, mother, 67, Jung Hyun Cho, first son, 43 and Eui Hyun Cho, second son,
40. They immigrated into California in late 1990 from South Korea. Two sons have never been married and still
single mainly because they have lost their lifetime earnings due to the eviction.
6 Located at 681 Tuscany Court, Fairfield, Solano County, CA 94534
7 Trial Payment Plan afforded under HAMP conditional to the rescue funds of TARP.
8 This payment amount was set by Bank of America as 31% of the gross household monthly income of $7,000.

10

In February 2013, Bank of America and CA Monitor Katie Porter9 simultaneously
sent letters to the Chos notifying eligibility of loan modification under HAMP.
Applications were numerously filed with Bank of America due mainly to its runaround
scheme. Eventually, Bank of America notified that servicing was transferred to Select
Portfolio, starting from November 1, 2013, with a brief note indicating the application
status would remain unchanged. However, Select Portfolio did not honor the continuity of
the application status transferred.
In August 2014, Select Portfolio sent a notice of default in an egregious attempt to
whitewash the continued status of the previous application. After a while Select Portfolio
started taking a new application from not just the borrower but also from non-obligor
family members. Again, the runaround scheme came into play, making Petitioners to turn
in supplementary financial information countlessly.
Finally, they offered an in-house modification package that was a far cry from the
HAMP criteria of 31% of gross household income. Simply put, the in-house offer did not
change from the original monthly payment. Select Portfolio started extorting Petitioners to
accept the in-house offer of approx. $3,000/month against multiple threats of non-judicial
foreclosure auction.
The extortion continued with over 10 notices of auction and cancellations until
October 31, 2016, when the auction finally took place. No cash bidders were present, and
after a lapse of a week, the trustee took title by means of postmortem credit bid.
STATEMENT OF PROCEEDINGS
1) On April 7, 2017, Deutsche Bank, after acquiring title, brought an unlawful detainer
action in a summary court of Superior Court of California for County of Solano.
Naturally, Petitioners’ motions to fight back for affirmative defense were started but
serially denied.
2) Realizing the state court is not for a cross-complaint, the Chos sued seven parties in
the U.S. Court for Eastern District of Califomia(CAED) on May 22, 2017. One of
defendants, Select Portfolio, is and was neither a California corporation nor a foreign
corporation registered in California. The eighth defendant was added a year later.
3) Removal of the unlawful detainer case was signed on 07/02/2017 and filed & entered
in CAED on 07/05/2017.
4) On July 11, 2017, the removal case was remanded to the originating summary court.
5) Motion to quash the remand filed in CAED on 07/31/2017. Denied.
6) State summary court judgment entered on 08/03/2018. No.FCM 1541263.
7) Notice to evacuate until 08/17/2017 served to the Chos.
8) Motion for Temporary Restraining Order for Injunction filed in CAED on 08/11/2017.
No.2:17-CV-01073-KJM-CKD. Denied.
9 Katie Porter was nominated in March 2012 as the state's independent monitor of banks in a nationwide $25
billion mortgage settlement: the incumbent U.S. Representative for California's 45th congressional district since
2019.

11

9) Findings and Recommendation by Magistrate Judge filed on 09/06/2017. The Chos
received paper copy thereof belatedly on 09/27/2017 due to post-eviction address
change, of which filing in CAED was timely.
10) Motion to amend the complaint filed on 09/13/2017 during non-receipt of the foregoing
paper copy. The Chos did not have access to PACER at that time.
11) On 01/17/2018, the district judge assigned to the federal case, adopted Magistrate
Judge’s Findings dated 09/06/2017. Hon. Kimberley J. Mueller issued an order that
[ljPetitioners have no private party right of action, [2] Petitioners other than Jung Hyun
Cho have no standing to FHA claim, and [3] Jung Hyun Cho is granted leave to amend.
12) Interlocutory appeal to the foregoing order filed in 9th Circuit on 02/08/2018. Denied
on 03/26/2018.
13)Petition for Transfer filed in 1st District Court of Appeals Division One(lDCA)
06/09/2018. No. FCS049349. Never entertained.
14) Consent to jurisdiction filed by two defendants on 07/31/2018, after a lapse of over a
year from the filing date of 05/22/2017 without paper service to the Chos.
15) Judgment entered by CAED on 08/14/2018. No.2:17-CV-01073-CKD.
16) Appeal to 9th Circuit filed on 09/12/2018. No.18-16719
17) Opening Brief filed in 9th Circuit on 01/30/2019. No. 18-16719
18) Petition for Writ of Mandamus filed in 9th Circuit 02/20/2019. No. 19-70425
19) Petition denied 05/29/2020. No. 19-70425
20) Memorandum issued by 9th Circuit on 04/21/2020. No. 18-16719.
ISSUES OF LAW
This petition for a writ of certiorari is premised on a first-generation immigrant family, the
Chos, and their civil liberties under Fair Housing Act of 1968(FHA) aka Civil Rights Act
of 1968.
In September 2004, the Chos bought the property for primary residence in the solo
name of Jung Hyun Cho. The purchase was financed with two subprime loans from WMC
Mortgage LLC, the originating lender. The lender promised the Chos that early
refinancing within a year is feasible. At the peak of the national 2007-2008 housing crash,
the loan default occurred due mainly to family sickness, and partly because the borrower
Jung Hyun Cho working two jobs at that time lost one.
The promised early refinancing never realized until the Chos lost their home of 13
years to a shady non-judicial foreclosure auction on October 30, 2016. In an attempt to
evade and deter litigation, servicer after servicer played the runaround game, and reneged
numerously on their commitments to loan modification under both HAMP and National
Mortgage Settlement. Again and again, the servicers fraudulently induced the Chos to loan
modifications to deter litigation.
On April 7,2017, Deutsche Bank National Trust Company sued three of the Chos in
a state summary court to take advantage of quicker eviction. The Chos’ affirmative defense

12

did not work due to jurisdictional defect of the summary court. A cross-complaint was not
viable because Select Portfolio Servicing(SPS) was not a California corporation.
In an attempt to determine jurisdiction for redress, the Chos brought a lawsuit
against SPS and six other parties on May 22, 2017 in the federal court of Eastern District
of California under the foregoing Fair Housing Act of 1968, Fraud Enforcement Recovery
Act(FERA) of 2009 and Racketeer Influenced and Corrupt Organizations (RICO) Act of
1970. A year later, another defendant was added to the federal action.
This federal case was dismissed in August 2018 on grounds of failure to allege
facially plausible claims. In September 2018, the Chos appealed to the 9th circuit court of
appeals for review. On April 21, 2020, the panel of three judges at the 9th circuit issued a
memorandum affirming the district court’s dismissal. Appendix A-l MEMORANDUM
04/21/2020.
1)

WMC Mortgage

As the original lender, WMC has scienter. To expedite its private-label mortgage
securitization scheme, WMC committed a willful misrepresentation on early
refinancing within one year. Upon securitization, WMC made a quick exit from the
status of original lender. In April 2019, WMC filed for chapter 11 bankruptcy
protection and since then it has been administratively closed to this case. General
Electric agreed to pay the Department of Justice a $1.5 billion penalty for alleged
accounting misrepresentations stemming from the company’s now defunct
subprime mortgage business, WMC. Source: CNBC News Published FRI, APR 12
2019
The Justice Department alleged that GE, through WMC, misrepresented the quality
of its subprime loans.
“The financial system counts on originators, which are in the best position to know
the true condition of their mortgage loans, to make accurate and complete
representations about their products. The failure to disclose material deficiencies
in those loans contributed to the financial crisis, ” Justice Department Assistant
Attorney General Jody Hunt said in a statement.
The potential violations were investigated under the Financial Institutions Reform,
Recovery, and Enforcement Act of 1989 (FIRREA). The law allows federal
authorities to pursue civil penalties of violations made by federally insured
financial institutions.
2)

Bank of America(BofA)

BofA acquired Countrywide Home Loans in 2018 and created the appearance of
Jung Hyun Cho, the homeowner/borrower as a long-term defaulter by numerously
deceiving the borrower on loan modification offers and then fraudulently inducing
to another offers to deter litigation. In May 2010, BofA offered Trial Period
13

Plan(TPP), which was conditional to obtaining the public rescue funds of TARP
and, when the borrower completed the 3-month TPP in time, it has reneged on it
and delayed the process until it started another round of fraud on National
Mortgage Settlement on Feb. 1,2013, and made a fraudulent inducement to another
chance of loan modification with its successor, Select Portfolio Servicing, Inc(SPS).
These repeated acts of willful breach of promissory estoppel is construed as RICO
predicates, thereby inferring the ‘continuity plus relationship’ in terms of duration
and its continuance into the future.
3)

SPS

SPS took over servicing from BofA in November 1,2013 and gave the impression
that SPS was offering HAMP by asking for submission of all the financial
documents from not just Jung Hyun Cho, the borrower, but all the family. After
some delays, SPS started the trickery of bait and switch instead of HAMP. Instead,
SPS offered an in-house package of loan modification that has changed very little
from the original loan terms, and kept torturing the Chos with more than a dozen
threats of foreclosure auctions until Deutsche Bank took title in October 2016.
4)

Inchoate Offences by Two Real Estate Agents

Long-term furtive surveillance and intrusion on privacy and seclusion rights were
perpetrated. The Chos suffered from persistent inchoate offences by servicers’ field
operatives who are real estate agents. This 5-year offences were started by BofA
and was inherited by SPS. Psychological torture plus vandalism has devastatingly
wreaked havoc on the Chos, causing emotional depression and psychological
trauma. The operatives were so skillful and furtive as not to be seen by any of the
Chos while hanging 50-odd doorknob hangers on the front door of the property
during the 5-year period.
5)

Jurisdictional Defect

Undisputably, the summary court for Solano County has no jurisdiction over bona
fide property dispute premised on civil fraud. See Asuncion v. Superior Court (W.
C. Financial, Inc.) (1980) - 108 Cal. App. 3d 141, 166 Cal. Rptr. 306. The
jurisdictional deficiency has been a proximate cause for removal to this federal
action.
6)

Postmortem Credit Bid by Deutsche Bank

Whether Deutsche Bank in the capacity of trustee for holders of certificate of MBS,
is eligible for credit bidding for non-bankruptcy foreclosure auction. Section 363(k)
of the Bankruptcy Code provides that the court can deny a credit bid for cause.
The term "cause" is not defined in Section 363, but it is intended
to be a flexible concept enabling a court to fashion an appropriate
remedy on a case-by-case basis. Further, the language of Section
14

363(k) does not prohibit a bankruptcy court from placing
conditions upon a secured creditor's ability to credit bid. Typically,
"cause" to deny a credit bid may be found where (i) there is a bona
fide dispute as to the extent, validity or priority of the creditor's
lien in the property for which it seeks to credit bid; (ii) there is a
bona fide dispute as to the allowed amount of the creditor's claim;
(iii) when determining the status of a creditor's security interest or
lien in the property would substantially extend the sale process and
diminish the value of the property being sold; or (iv) where the
secured creditor fails to follow the bidding procedures established
by the Bankruptcy Court. See RadLAX Gateway Hotel, LLC v.
Amalgamated Bank, No. 11-166, 2012 WL 1912197 (U.S. May 29,
2012)
Whether the trustee for private-label MBS certificate holders can be treated as a
secured creditor in the Bankruptcy Court begs the question. Whether the trustee’s
credit bid was made without diminishing the market value of the property also begs
the question.
7)

Judicial misconducts

Beyond all reasonable doubt, the following incidents have exceeded the
scope of judicial errors by all appearances, causing irreparable damages to the Chos,
and severely undermined impartiality and procedural due process. “[Procedural
due process rules are meant to protect persons not from the deprivation, but from
the mistaken or unjustified deprivation of life, liberty, or property.”
a) Unlawful intervention by state court clerk
Though this incident did not occur in the federal courts, but it had a
devastating impact on the property ownership issue, which is a common
thread linking state and federal action related to this property. Without even
any court officers about the procedure, a state court clerk returned unfiled
the borrower’s application for pendency of action for no good cause. This
application was subject to discretion of a judge. This misconduct deterred
the process by over four months, during which the property was successful
sold to a house flipper. Belatedly, the application for pendency of action
was resubmitted and approved by the then presiding judge of Superior Court
of California for Solano County, and was recorded with County Recorder.
b) Fraud on the court by a non-assigned district judge
On 07/11/2017, the non-assigned judge remanded the removal case on
grounds of lack of subject matter jurisdiction. A petition for writ of
mandamus was filed on Feb. 20, 2019 and was denied on May 29, 2019.
See Appendix B-2 No.19-70425. The remand for lack of subject matter
15

perverted the course of justice, giving a devastating impact on both federal
and state court proceedings. The Chos allege the remand was not proper on
grounds of (1) willful antedating of the filing date of removal to April 24,
2017 from the correct date of 07/05/2017 in an egregious attempt to
bifurcate the removal case from the federal action to evade supplemental
jurisdiction. (2) willful suppression of the factual basis of close relatedness
between the removal case and Case No. 2:17-CV-01073-KJM-CKD (3) no
service of paper copy to Kyu Hwang Cho. (4) No showing of justification
for emergency. (5) No motion from any opposing party filed. (6) No
justification for the non-assigned judge to sit in for either of both district
and magistrate judges already assigned to this federal case. The Chos allege
this misconduct constitutes fraud on the court involving willful false
material statement.
Fraud on the Court, or Fraud upon the Court, is where a material
misrepresentation has been made to the court, or by the court itself. The
main requirement is that the impartiality of the court has been so disrupted
that it can’t perform its tasks without bias or prejudice.
Some examples offraud on the court include:
a. Fraud in the service of court summons (such as withholding a
court summons from a party)
b. Corruption or influence ofa court member or official
c. Judicialfraud
d. Intentionally failing to inform the parties of necessary
appointments or requirements, in efforts to obstruct the judicial
process
e.
“Unconscionable” schemes to deceive or make
misrepresentations through the court system.
The Chos allege the foregoing forgery applies to the underlined item “e”.
SYSTEMIC ISSUES
1. Inherent Systemic Discrimination Against Pro Se Litigants
According to ABA Journal of Sept. 11, 2017, Judge Richard Posner cites boredom with
judging as well as rebuffed efforts to aid pro se litigants in a new interview explaining his
decision to suddenly retire from the Chicago-based 7th U.S. Circuit Court of Appeals.
“The basic thing is that most judges regard these people as kind of trash not worth the time
of a federal judge,” Posner said.
2. Pro se litigation
The Supreme Court noted that "[i]n the federal courts, the right of self-representation
has been protected by statute since the beginnings of our Nation. Section 35 of the Judiciary
Act of 1789,1 Stat. 73, 92, enacted by the First Congress and signed by President
16

Washington one day before the was proposed, provided that 'in all the courts of the United
States, the parties may plead and manage their own causes personally or by the assistance
of counsel.'"
While the loan modification status started a tough going with SPS, the Chos made
countless attempts to find the right attorney to represent them. All told, more than a dozen
law firms or law offices were contacted and only two of them stayed with the Chos for a
brief stint. Regardless of the merit of case prevalence, financial issues might arguably be
the reason they would distance themselves away from at-fault homeowners like the Chos
in view of time-consuming proceedings. Therefore, unrepresented parties may be treated
like party crashers ruining judicial economy and may lose a fair opportunity for procedural
due process.
3. Article III Standing
In 2016, the United States Supreme Court issued a landmark opinion addressing
Article III standing under the U.S. Constitution. See Spokeo v. Robins,---- U.S.
136
S. Ct. 1540, 194 L.Ed.2d 635 (2016). “[T]he ‘irreducible constitutional minimum’ of
standing consists of three elements. The plaintiff must have (1) suffered an injury in fact,
(2) that is fairly traceable to the challenged conduct of the defendant, and (3) that is likely
to be redressed by a favorable judicial decision.” Id. Ultimately, in Spokeo, the Supreme
Court held that “Article III standing requires a concrete injury even in the context of a
statutory violation.” Nonetheless, the Chos, being unrepresented, were denied Article III
standing and even due process rights.
4. The Gaming Tactics of Consent Jurisdiction
The Federal Magistrates Act of 1968, as amended, was enacted by the Congress to
create a new federal judicial officer who would (1) assume all the former duties of the
commissioners and (2) conduct a wide range of judicial proceedings to expedite the
disposition of the civil and criminal caseloads of the United States.
Contrary to its good cause, the Chos believe the consent jurisdiction served to delay
legal proceedings unreasonably due to error-prone proceedings. In this federal action, two
defendants actually gamed the consent jurisdiction, delayed the proceedings fourteen
months until a few days before judgment of case dismissal was entered, while the
magistrate judge did practically nothing to expedite proceedings, denying repeatedly the
Chos’ motions to expedite them. The consent jurisdiction is flawed and contradictory to
the legal maxim : Delayed justice is justice denied.
Systemic discrimination against pro se litigants has upended the rule of law. Local
Rule L.R. 302(C)(21)of the district court permits only represented parties before a district
judge, when a case is referred back to a district judge from a magistrate judge, thereby
undermining Article III standing and threatening imminent damages to an unrepresented
party, particularly in civil frauds.

17

There is a reasonable doubt that the said local rule is far from being constitutional. The
Chos filed a claim of unconstitutionality premised on this local rule for review by the 9th
Circuit and Department of Justice. The panel grossly abused its discretion and swept it
away under the carpet. The core value of this appeal process was judicial impartiality and
due process.
ARGUMENT AGAINST MEMORANDUM
Page 2 L 1-6: The panel mentioned “federal and state claims arising out of completed
foreclosure proceedings”
The Chos argue the panel decision on appeal comes with a connotation that once ruled,
it is all over, whatever the reason. This is logically fallacious and circular. Furthermore,
the Chos contend that when this federal action was filed, the foreclosure proceedings were
under way. Even completed foreclosure proceedings can be vacatable for some reasons.
There are three elements to make judgment vacatable 1) existence of fraud 2) lack of bona
fide jurisdiction, 3) inherent lack of bona fide due process of bona fide law. Even the
Supreme Court holding of Allison Engine Co. v. United States ex rel. Sanders was
overruled by Congress posthumously under Id. Fraud Enforcement Recovery Act(FERA).
Page 2 L 7-12: The panel mentioned FCA claim.
Contrary to the panel’s contention, the Chos filed a federal claim under Fraud
Enforcement Recovery Act of2009. It was not a whistleblower suit under FCA. See Wigod
v. Wells Fargo Bank. The holding of Wigod permits a private party right of action under
HAMP on breach of contract. HAMP initiatives for troubled homeowners were conditional
to federal rescue fund provided to banks under TARP. In 2009 FERA amended significant
part of FCA to include even private mortgage lenders as financial institutions, thereby
creating a solid basis for enforcing prevention of reverse false claims arising from TARP
and HAMP. The Chos’ federal claim was premised on FERA, but the trier of facts and this
panel of 9th Circuit oversimplified the Chos’ claim to distort the factual basis so as to create
the appearance of the Chos claiming standing to FCS claim, albeit being not a relator or a
qui tarn plaintiff. Wigod was numerously cited in many appellate decisions. The appellate
decisions citing Wigod include Mahin Oskoui v. JPMorgan Chase Bank, et al. 9th Circuit
in 15-55457(2017). Westv. JPMorgan Chase Bank, N.A. (2013) 214 Cal.App.4th 780, 154
Cal.Rptr.3d 285. Bushell v. JPMorgan Chase Bank, N.A. (2013) 220 Cal.App.4th 915
Page 2, L 13-20: The panel stated the Chos failed to plead a substantive violation of RICO.
The Chos’ situation was similar to George v. Urban Settlement Servs. In its decision,
the panel willfully suppressed a factual basis for a pattern of racketeering by two real estate
agents. Instructed by Bank of America and SPS, Ronald Lee and Juan Gomez perpetrated
inchoate offences inclusive of furtive surveillance and intrusion on privacy and seclusion
rights. The panel decision is fatally flawed in that the panel ruled based on a cursory reading
of staff attorneys’ memos. The panel decision is not based on the merits, turning a blind
eye to a pattern of racketeering by servicers for over a decade.
18

Page 3 L 1-5: The panel ruled issue preclusion by District Court was proper on grounds
that this issue was already litigated and resolved in a prior state court action.
The Chos argue the state court action involved jurisdictional defect and allegation of
fraud and therefore is neither res judicata nor collateral estoppel but invalid and vacatable.
The state court action was an unlawful detainer action with defect ofjurisdiction, while the
federal action is civil fraud requiring federal enforcement of FHA.
The Chos argue that issue preclusion is not proper on grounds of an injury in fact
substantiated by circumstantial and extrinsic evidence. The panel decision severely
contravenes the landmark decision by U.S. Supreme Court on Bank of America Corp.et al
v. City ofMiami, Florida.
The FHA prohibits, among other things, racial discrimination in connection with realestate transactions, 42 U. S. C. §§3604(b), 3605(a), and permits any “aggrieved person” to
file a civil damages action for a violation of the Act, Article III
Page 3 L 6-1: The Chos have claimed a substantiated and viable claim for federal redress.
There is a reasonable doubt that the panel has read the Chos’ pleadings in full text, in lieu
of staff attorney’s arguably prejudged, oversimplified or rubber-stamped memos. A
violation of FHA is a civil fraud requiring federal enforcement. This federal case is a typical
mortgage fraud by industry insiders, as defined by FBI.
Page 3 L-12-17: The panel stated the Chos failed to state a plausible claim for relief.
The Chos stated facially plausible claims for relief as the pleading stage gets ripe for
discovery needs. The Chos contend that WMC Mortgage LLC, the original lender, and
Bank of America, the servicer, had scienter, knowing ahead that the private-label mortgage
securitization is going to be another form of Ponzi scheme in the event of default by a
majority of homeowners and/or mortgagors. That Ponzi scheme scenario became a stark
reality during the 2007-2008 housing crash. It construes foreseeability. The 2007-2009
housing crash was a good example. WMC was committed to a massive fine due to
fraudulent operations right before it filed for a chapter 11 bankruptcy in April 2019.
Page 3 L 113-15 - Page 4 L 1-5: The panel misconstrued Article III standing, upending
the rule of law and contravening the U.S. Supreme Court’s landmark ruling on Article III
standing. See Spokeo v. Robins,---- U.S.
136S. Ct. 1540, 194 L.Ed.2d 635 (2016)
Page 4 L 6-10: The panel failed to understand equality of taxing affecting modification
under FHA.
The Chos’ claim for inequality was based on years of repeated petition filed with
Solano County and groundless denial. The details of adjudicative factual basis were
delineated in the Chos’ REQUEST FOR JUDICIAL NOTICE, which comes with a
comparison table showing three properties of similar size located in the proximity.
Page 4 L 11-14: The panel grossly abused its discretion to affirm the trial court’s decision
that amendment is futile, showing circular reasoning that all the completed proceedings
19

are res judicata. Also, the panel stated “de novo” review, which means no deference to the
trial court. On the contrary to the good cause for de novo review, the panel appears to
accord of a high level of deference, indicating the district court decision is infallible. It is
illogical to say that because it is bad it is bad.
Page 4 L 15-16: The panel ruled the Chos’ contention that the district court exhibited
hostility is meritless.
The Chos argue that hostility and discrimination show more reasonable likelihood of
being non-obvious. Judicial immunity and judicial infallibility are not within the same
domain. Lack of judicial impartiality forms a basis for hostility and discrimination by
delaying fair proceedings.
For instance, the Chos filed a motion for leave to amend on 09/13/2018[ECF 85] and
it was lodged until the Chos filed a duplicatefECF 87] in person on 09/29/2017. The court
stayed proceedings for about 40 days without a notice until 10/02/2017. The court clerk
denied receipt on 09/13/2017 of ECF 85, when one of the Chos was filing the duplicate
ECF 87 in person. The Chos filed more than a dozen motions with the district court, and
all of them ended up a blanket denial based on prejudged misconception. Some of the
motions did not affect the prevalence of the case at all, but to pursue judicial economy and
efficiency. The foregoing incident and blanket denial may cause a reasonable person to
entertain a doubt that the trial court was friendly and attentive enough to help an injured
party to see if legal redress or equitable relief is available in a timely fashion. It was an
insult added to injury.
There were multiple incidents, which included judicial and clerical errors that had
caused unconscionable injury to the Chos’ position: (1) the foregoing incident of
unreasonable lodging of an amendment for two weeks, while court clerk insisting on non­
receipt and (2)another incident of filing only one out of 7 documents that had to be timely
filed. The remaining 6 documents were belatedly filed but the filing dates were behind the
validity of statute of repose. (3)Fraud on the court committed by a non-assigned district
judge who arbitrarily remanded removal of a state unlawful detainer action by bifurcating
the removal case from the federal action by committing a document forgery in an attempt
to evade of application of supplemental jurisdiction over the case that forms part of the
case or controversy under Article III . See Appendix B-3. 2.17-CV-01073-KJM-CKD &
2.17-CV-01357-MCE-DB. Ninth Circuit No. 19-70425. The removal case was remanded
to the summary court that has allegedly no jurisdiction over property dispute. See Id.
Asuncion v. Superior Court.
Page 4 L 17-23: The panel is admittedly authorized to rule on part of the review process
sua sponte.
The Chos contend this denial of all the motions and requests entertain a reasonable
doubt that the panel is free from a gross abuse of discretion.

REASONS FOR GRANTING THE PETITION
20

This High Court’s jurisdiction is invoked to fix significant interjurisdictional disunity
caused by the 9th circuit decision on appeal that turned out to be novel, unprecedented and
even contradictory to a set of landmark case decisions frequently cited for similar FHA
arguments, threatening unconscionable injury to the public confidence in the judiciary
system.
[1] De Novo Review: The panel of the 9th circuit stated the ‘de novo’ review of this cause,
meaning zero deference to lower court discretions and decisions. Notwithstanding, the
panel’s decision is mostly premised on significant oversight of the challenged due process
rights and lack ofjudicial impartiality at the trial court. The panel failed to show the good
cause for the “de novo” review that is intended to search for the unfair or mistaken
deprivation of due process rights.
[2] Faulty Reasoning of Res Judicata: To support the foregoing view, the panel arbitrarily
swept under the rug Petitioners’ Judicial Notice of Adjudicative Facts. Furthermore,
Petitioners’ claim of unconstitutionality was not entertained, knowing the foreseeability of
imminent risks to the Chos in future proceedings. The panel decision was based on faulty
reasoning of the res judicata status automatically afforded on allegedly impugnable lower
court decisions without further review of the rule of the law and the meritorious factual
basis supporting proximate causes.
[3] Promissory Estoppel: The panel oversighted promissory estoppel related to the HAMP
claim and abused its discretion to confuse it for FCA claim, knowing this FHA claim is not
a quit tarn lawsuit. The panel failed to show a basis for understanding close relatedness of
HAMP and the amendments of FCA added to FERA: reneging on the HAMP commitment
to mortgage loan modification on the condition of getting federal rescue funds may pave
the way for a reverse false claim provided under FERA that may be construed as mortgage
fraud.
[4] RICO Offences: The panel did not consider garden variety claim resulting from
servicers and their agents’ RICO predicate offences of 5-year-long infringements on
privacy and seclusion rights. There was no showing that the panel has appropriately
reviewed these RICO offenses substantiating the continuity plus relationship test of
servicers and their field operatives. This FHA claim revolves around a white collar crime :
mortgage fraud by industry insiders. The appellate decision of George v. Urban Settlement
Services, No. 14-1427 (10th Cir. 2016) vindicates the RICO claim dismissed in the trial
court. Bank of America was a co-defendant in George v. Urban Settlement. The panel
decision contravenes the appellate decision held by the George court.
[5] Inequality v. Overtaxing: The panel failed to demonstrate a difference between the
honest error of overtaxing and the chronic inequality in the assessment of local property
tax. The panel oversimplified Petitioners’ claim on irreparable injury devastating
refinancing terms. Years of repeated refusals by Solano County to remedy the challenged
chronic inequality was an added blow to loan modification on a fair term. The panel
decided to bifurcate it as a tax court claim instead of a FHA claim. The Chos’ claim of
21

chronic inequality stems from the abrupt increase of local property tax since 2012 when
servicers turned the mortgage loan into an impound account. In their judicial notice, the
Chos provided adjudicate facts plus a showing in the form of a comparison table. The
property in question was over $2,000 higher annually than the other two properties of
similar size in the proximity. The inequality claim is premised on Solano County’s chronic
refusal to consider the Chos’ request for relief, in the presence of the foreseeable result of
the inequality affecting the Chos’ loan modification status.
In conclusion, the panel overly anatomized proximate causes of this federal claim only to
miss a common thread linking the whole of this civil fraud claim. Accordingly, the panel
failed to see the core issue of federal enforcement tenet of this claim, while arbitrarily
defying the doctrine of stare decisis. The panel decision contravenes landmark decisions
that are frequently cited to adjudicate similar FHA arguments. They are Bank of America
Corp. v. City of Miami Consolidated with Wells Fargo & Co. v. City ofMiami (SCOTUS
2017), Wigod v. Wells Fargo(7th Cir. 2012), George v. Urban (10th Cir. 2016), Oskoui v.
J.P. Morgan (9th Cir. 2017), and Asuncion v. Superior Court (W. C. Financial, Inc. 1980).

CONCLUSION
The petition for a writ of certiorari should be granted.
Respectfully submitted,

Jung Hyun Cho, Petitioner

Kyu Hwang Cho, Petitioner

Eun Sook Cho, Petitioner

Eui Hyun Cho, Petitioner

Date: September 23, 2020

22

